No. ______
In the

Supreme Court of the United States
__________________
STEVEN MENZIES,
v.

Petitioner,

SEYFARTH SHAW LLP, GRAHAM TAYLOR, NORTHERN
TRUST CORPORATION, AND CHRISTIANA BANK & TRUST
COMPANY,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
ROBERT J. HARRIS
Counsel of Record
HARRIS WINICK HARRIS LLP
333 West Wacker Drive
Chicago, IL 60606
(312) 416-4600
rharris@hwhlegal.com
Counsel for Petitioner
March 10, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Whether the United States Court of Appeals for the
Seventh Circuit failed to apply this Court’s
mandated flexible approach to RICO’s pattern of
racketeering activity, by rigidly focusing solely on
the particularity of the factual allegations regarding
other victims of a fraudulent scheme.
2. Whether the pleading requirements of Federal Rule
of Civil Procedure 9(b) require that the specific
contents of allegedly privileged communications in
a fraudulent scheme be pleaded with particularity
to establish a RICO claim where the underlying
predicate offenses are mail or wire fraud which do
not require proof that the other defendants were
actually deceived.
3. Whether a scheme’s threat of continuity is
evaluated at the time the racketeering activity
occurred, or can subsequent, fortuitous events be
considered to defeat the threat of continuity.

ii
PARTIES TO THE PROCEEDING
Pursuant to United States Supreme Court Rule
14(1)(b), Petitioner Steven Menzies advises the Court
that the caption of the case contains the names of all
parties to this proceeding and, therefore, a separate list
of parties is omitted.
CORPORATE DISCLOSURE STATEMENT
Pursuant to United States Supreme Court Rules
29.6 and 14(1)(b), Petitioner Steven Menzies is an
individual with no corporate affiliation.
RELATED PROCEEDINGS
Menzies v. Seyfarth Shaw LLP, Graham Taylor,
Northern Trust Corporation, and Christiana Bank &
Trust Company, Case No. 15 C 3403, United States
District Court for the Northern District of Illinois.
Decision issued September 21, 2018.
Menzies v. Seyfarth Shaw LLP, Graham Taylor,
Northern Trust Corporation, and Christiana Bank &
Trust Company, Case No. 18-3232, United States Court
of Appeals for the Seventh Circuit. Panel decision
issued November 12, 2019. Order denying rehearing en
banc issued December 12, 2019.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
RELATED PROCEEDINGS . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vii
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED . . . . . . . . 2
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 6
A. Factual Background . . . . . . . . . . . . . . . . . . . . 6
i.

Menzies Participates in the Euram
Oak Strategy – An Abusive Tax
Shelter . . . . . . . . . . . . . . . . . . . . . . . . . . 6

ii.

Euram Bank Actively Developed,
Marketed and Implemented its
Fraudulent Tax Schemes, Including
the Euram Oak Strategy . . . . . . . . . . . 8

iii.

The Enterprise Had Already
Implemented the Euram Oak Strategy
and Another Abusive Tax Shelter for
Other Victims at the Time Menzies
and Ferenc Were Approached . . . . . . . 9

iv
iv.

The Enterprise’s Scheme to Defraud
Menzies and Ferenc . . . . . . . . . . . . . . 10
a. Christiana’s Role as a Purported
Independent Trustee . . . . . . . . . . . 11
b. The Participation of Taylor and
Seyfarth in Drafting Bogus Legal
Opinions Justifying the
Transactions . . . . . . . . . . . . . . . . . 12

v.

Menzies’ Obligation to Pay Capital
Gains Tax, Penalties and Interest
After the IRS Audit Determines
Euram Oak Strategy is Abusive . . . . 14

B. Procedural Background. . . . . . . . . . . . . . . . . 15
i.

District Court Proceedings . . . . . . . . . 15

ii.

The Seventh Circuit Panel
Decision . . . . . . . . . . . . . . . . . . . . . . . . 16
a. Majority . . . . . . . . . . . . . . . . . . . . . 16
b. Dissent . . . . . . . . . . . . . . . . . . . . . . 18

REASONS FOR GRANTING THE WRIT. . . . . . . . 22
I. This Court’s Guidance is Needed to
Clarify the Flexible Approach to the Continuity
Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
A. The Flexible Approach to Determine
Continuity Requires Consideration of More
Than One Factor . . . . . . . . . . . . . . . . . . . . . . 23

v
B. The Elements of Common Law Fraud Cannot
Be Conflated with Mail and Wire Fraud to
Prevent Application of RICO . . . . . . . . . . . . 25
II. Hindsight Cannot be Used to Determine
Whether There is a Continuing Threat of
Racketeering Activity . . . . . . . . . . . . . . . . . . . . . 30
A. The Use of Hindsight Further Fractures the
Continuity Analysis. . . . . . . . . . . . . . . . . . . . 30
B. The Use of Hindsight Limits RICO’s Scope by
Preventing RICO Claims Where a
Racketeering Enterprise Is Caught
Committing Criminal Activities . . . . . . . . . . 36
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Seventh Circuit
(November 12, 2019) . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion and Order in
the United States District Court for
the Northern District of Illinois,
Eastern Division
(September 21, 2018) . . . . . . . . . App. 61
Appendix C Judgment in a Civil Case in the
United States District Court for the
Northern District of Illinois, Eastern
Division
(September 21, 2018) . . . . . . . . . App. 83

vi
Appendix D Memorandum Opinion and Order in
the United States District Court for
the Northern District of Illinois,
Eastern Division
(July 15, 2016). . . . . . . . . . . . . . . App. 85
Appendix E Order Denying Petition for Rehearing
and Rehearing En Banc in the United
States Court of Appeals for the
Seventh Circuit
(December 12, 2019) . . . . . . . . . App. 166

vii
TABLE OF AUTHORITIES
CASES
Abraham v. Singh,
480 F.3d 351 (5th Cir. 2007). . . . . . . . . . . . . 32, 33
Ashcroft v. Iqbal,
556 U.S. 662 (2009). . . . . . . . . . . . . . . . . . . . . . . 28
Atlas Pile Driving Co. v. DiCon Fin. Co.,
886 F.2d 986 (8th Cir. 1989). . . . . . . . . . . . . . . . 26
Blue Cross & Blue Shield of Michigan v. Kamin,
876 F.2d 543 (6th Cir. 1989). . . . . . . . . . . . . . . . 33
Bridge v. Phoenix Bond & Indem. Co.,
553 U.S. 639 (2008). . . . . . . . . . . . . . . . . . . . . . . . 5
Corley v. Rosewood Care Ctr., Inc. of Peoria,
388 F.3d 990 (7th Cir. 2004). . . . . . . . . . . . . . . . . 4
Dana Corp. v. Blue Cross & Blue Shield Mut. of
N. Ohio, 900 F.2d 882 (6th Cir. 1990) . . . . . . . . 25
Durham v. Bus. Mgmt. Assocs.,
847 F.2d 1505 (11th Cir. 1988). . . . . . . . . . . . . . 24
Empress Casino Joliet Corp. v. Balmoral Racing
Club, Inc., 831 F.3d 815 (7th Cir. 2016). . . . 34, 35
Gagan v. Am. Cablevision, Inc.,
77 F.3d 951 (7th Cir. 1996). . . . . . . . . . . . . . . . . 24
H.J. Inc. v. Northwestern Bell Telephone Co.,
492 U.S. 229 (1989). . . . . . . . . . . 22, 23, 24, 25, 35
Heinrich v. Waiting Angels Adoption Servs., Inc.,
668 F.3d 393 (6th Cir. 2012). . . . . . . . . . . . . . . . 32

viii
Inteliquent, Inc. v. Free Conferencing Corp.,
2017 WL 1196957 (N.D. Ill. 2017) . . . . . . . . . . . 19
Liquid Air Corp. v. Rogers,
834 F.2d 1297 (7th Cir. 1987). . . . . . . . . . . . 24, 25
Newmyer v. Philatelic Leasing, Ltd.,
888 F.2d 385 (6th Cir. 1989). . . . . . . . . . . . . . . . 24
Ouwinga v. Benistar 419 Plan Servs., Inc.,
694 F.3d 783 (6th Cir. 2012). . . . . . . . . . . . . . . . 24
Perlman v. Zell,
938 F. Supp. 1327 (N.D. Ill. 1996), aff’d,
185 F.3d 850 (7th Cir. 1999). . . . . . . . . . . . . . . . . 5
Roger Whitmore’s Auto. Servs., Inc. v. Lake Cty.,
Illinois, 424 F.3d 659 (7th Cir. 2005) . . . . . . 34, 35
Schmuck v. United States,
489 U.S. 705 (1989). . . . . . . . . . . . . . . . . . . . . . . 26
Uni*Quality, Inc. v. Infotronx, Inc.,
974 F.2d 918 (7th Cir. 1992). . . . . . . . . . . . . . . . 35
United Energy Owners Comm., Inc. v. U.S. Energy
Mgmt. Sys., Inc.,
837 F.2d 356 (9th Cir. 1988). . . . . . . . . . . . . . . . 24
United States v. Aulicino,
44 F.3d 1102 (2d Cir. 1995) . . . . . . . . . . . . . 32, 33
United States v. Briscoe,
65 F.3d 576 (7th Cir. 1995). . . . . . . . . . . . . . . . . 27
United States v. Bucey,
876 F.2d 1297 (7th Cir. 1989). . . . . . . . . . . . . . . 37

ix
United States v. Busacca,
936 F.2d 232 (6th Cir. 1991). . . . . . . . . . . . . 32, 36
United States v. Koen,
982 F.2d 1101 (7th Cir. 1992). . . . . . . . . . . . . . . 37
United States v. O’Connor,
910 F.2d 1466 (7th Cir. 1990). . . . . . 32, 33, 35, 36
United States v. Richardson,
167 F.3d 621 (D.C. Cir. 1999) . . . . . . . . . 32, 33, 36
United States v. Sheneman,
682 F.3d 623 (7th Cir. 2012). . . . . . . . . . . . . . . . 26
Vicom, Inc. v. Harbridge Merch. Servs., Inc.,
20 F.3d 771 (7th Cir. 1994). . . . . . . . . . . . . . 34, 35
STATUTES
18 U.S.C. § 1341 . . . . . . . . . . . . . . . . . . . . . . 2, 3, 4, 27
18 U.S.C. § 1343 . . . . . . . . . . . . . . . . . . . . . . . . 3, 4, 27
18 U.S.C. § 1961, et seq. . . . . . . . . . . . . . . . . . . . . . . 22
18 U.S.C. § 1961(5). . . . . . . . . . . . . . . . . . . . . . . . 2, 22
18 U.S.C. § 1962(c) . . . . . . . . . . . . . . . . . . . . . . . . . 1, 4
18 U.S.C. § 1962(d). . . . . . . . . . . . . . . . . . . . . . . . . 2, 4
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RULE
Fed. R. Civ. P. 9(b) . . . . . . . . . . . . . . . . . . . . . . passim

1
OPINIONS BELOW
The United States Court of Appeals for the Seventh
Circuit panel opinion, Menzies v. Seyfarth Shaw LLP,
943 F.3d 328 (7th Cir. 2019), is reprinted in the
Appendix to the Petition (“App.”) at 1a–60a, and the
Seventh Circuit order denying rehearing en banc is
unreported and is reprinted at App. 166a–167a.
The Memorandum and Order of the district court
issued on September 21, 2019 is unreported, but is
available at Menzies v. Seyfarth, Shaw LLP, 15 C 3403,
2018 WL 4538726 (N.D. Ill. Sept. 21, 2018), and is
reprinted at App. 61a–82a.
JURISDICTION
The United States Court of Appeals for the Seventh
Circuit panel entered its opinion on November 12,
2019. Petitioner timely filed a petition for rehearing en
banc on November 26, 2019, which the Seventh Circuit
denied on December 12, 2019. This Court has
jurisdiction under 28 U.S.C. section 1254(1).
STATUTORY PROVISIONS INVOLVED
18 U.S.C. section 1962(c) (Racketeer Influenced and
Corrupt Organizations Act (“RICO”)) provides: “It shall
be unlawful for any person employed by or associated
with any enterprise engaged in, or the activities of
which affect, interstate or foreign commerce, to conduct
or participate, directly or indirectly, in the conduct of
such enterprise’s affairs through a pattern of
racketeering activity or collection of unlawful debt.”

2
18 U.S.C. section 1962(d) (RICO conspiracy
violation) provides: “It shall be unlawful for any person
to conspire to violate any of the provisions of subsection
(a), (b), or (c) of this section.”
18 U.S.C. section 1961(5) provides that a “‘pattern
of racketeering activity’ requires at least two acts of
racketeering activity, one of which occurred after the
effective date of this chapter and the last of which
occurred within ten years (excluding any period of
imprisonment) after the commission of a prior act of
racketeering activity[.]”
18 U.S.C. section 1341 (mail fraud) provides:
Whoever, having devised or intending to devise
any scheme or artifice to defraud, or for
obtaining money or property by means of false or
fraudulent pretenses, representations, or
promises, or to sell, dispose of, loan, exchange,
alter, give away, distribute, supply, or furnish or
procure for unlawful use any counterfeit or
spurious coin, obligation, security, or other
article, or anything represented to be or
intimated or held out to be such counterfeit or
spurious article, for the purpose of executing
such scheme or artifice or attempting so to do,
places in any post office or authorized depository
for mail matter, any matter or thing whatever to
be sent or delivered by the Postal Service, or
deposits or causes to be deposited any matter or
thing whatever to be sent or delivered by any
private or commercial interstate carrier, or takes
or receives therefrom, any such matter or thing,
or knowingly causes to be delivered by mail or

3
such carrier according to the direction thereon,
or at the place at which it is directed to be
delivered by the person to whom it is addressed,
any such matter or thing, shall be fined under
this title or imprisoned not more than 20 years,
or both. If the violation occurs in relation to, or
involving any benefit authorized, transported,
transmitted, transferred, disbursed, or paid in
connection with, a presidentially declared major
disaster or emergency (as those terms are
defined in section 102 of the Robert T. Stafford
Disaster Relief and Emergency Assistance Act
(42 U.S.C. 5122)), or affects a financial
institution, such person shall be fined not more
than $1,000,000 or imprisoned not more than 30
years, or both.
18 U.S.C. section 1343 (wire fraud) provides:
Whoever, having devised or intending to devise
any scheme or artifice to defraud, or for
obtaining money or property by means of false or
fraudulent pretenses, representations, or
promises, transmits or causes to be transmitted
by means of wire, radio, or television
communication in interstate or foreign
commerce, any writings, signs, signals, pictures,
or sounds for the purpose of executing such
scheme or artifice, shall be fined under this title
or imprisoned not more than 20 years, or both. If
the violation occurs in relation to, or involving
any benefit authorized, transported,
transmitted, transferred, disbursed, or paid in
connection with, a presidentially declared major

4
disaster or emergency (as those terms are
defined in section 102 of the Robert T. Stafford
Disaster Relief and Emergency Assistance Act
(42 U.S.C. 5122)), or affects a financial
institution, such person shall be fined not more
than $1,000,000 or imprisoned not more than 30
years, or both.
INTRODUCTION
This case is about more than isolated or sporadic
criminal activity. Steven Menzies’ (“Menzies” or
“Plaintiff”) Second Amended Complaint (“SAC”) details
a complex tax fraud scheme that lasted for more than
five years involving the development, marketing and
implementation of tax shelter products intended to be,
and in fact sold to multiple investors. Plaintiff alleged
violations of 18 U.S.C. section 1962(c) and (d) with
underlying predicate offenses of mail and wire fraud. In
order to establish a claim for mail or wire fraud
pursuant to 18 U.S.C. §§ 1341 or 1343, a plaintiff must
show: a scheme to defraud; the intent to defraud; and
the use of the mails or wire communications in
furtherance of the scheme to defraud. See Corley v.
Rosewood Care Ctr., Inc. of Peoria, 388 F.3d 990, 1005
(7th Cir. 2004).
The United States Court of Appeals for the Seventh
Circuit in finding Plaintiff’s allegations of a pattern
insufficient, failed to give Plaintiff the benefit of
reasonable inferences, overly restrictively requiring
particularized allegations of the contents of legal
opinion letters provided to other victims of the
fraudulent scheme, and looking at the facts with the
benefit of hindsight. Critically, this Court has held that

5
the elements of mail and wire fraud do not include any
requirement that a plaintiff plead actual deception by
alleging knowledge of other victims. Bridge v. Phoenix
Bond & Indem. Co., 553 U.S. 639, 652 (2008); Perlman
v. Zell, 938 F. Supp. 1327, 1346 (N.D. Ill. 1996), aff’d,
185 F.3d 850 (7th Cir. 1999) (whether defendants
ultimately deceived plaintiff “is not a requirement for
a charge of mail or wire fraud”). Thus, because Plaintiff
did not need to prove that the other victims of the
scheme were actually deceived, the fact that Menzies
only alleged the general contents of opinion letters
(which had been withheld on the basis of privilege) sent
by Defendants as part of their fraudulent scheme is not
material to whether he stated a claim for which relief
can be granted.
The question presented here is whether the United
States Court of Appeals for the Seventh Circuit failed
to apply this Court’s mandated flexible approach to
RICO’s pattern of racketeering activity. The Seventh
Circuit took a position contrary to decisions of other
courts of appeals in failing to provide Plaintiff with the
benefit of reasonable inferences, and evaluating the
scheme with the benefit of hindsight rather than at the
time the racketeering activity occurred. This petition
presents important questions of law, as the Seventh
Circuit has adopted an erroneous restrictive view of the
RICO pattern requirement which substantially
weakens both civil and criminal RICO.
The Court should grant certiorari.

6
STATEMENT OF THE CASE
A. Factual Background
Menzies is an insurance executive, having founded
Applied Underwriters, Inc. (“AUI”) with his business
associate, Sidney Ferenc (“Ferenc”). (District Court
Docket (“Dkt.”) 165 (“SAC”) ¶ 1). In November 2002,
purported financial advisors at Defendant Northern
Trust approached Menzies. (SAC ¶ 30). During
preliminary communications, Menzies and Ferenc
explained that they each held stock in AUI. (SAC ¶ 32).
At that time, the AUI stock had a relatively low basis
(original value for tax purposes) and there were
investors and companies pursuing an interest in AUI.
In the event that AUI stock was sold, or otherwise
reflected as an income event, Menzies and Ferenc could
potentially be liable for capital gains tax equal to the
difference between the asset’s cost basis and its
purchase price. (SAC ¶¶ 1, 32, 43).
i.

Menzies Participates in the Euram Oak
Strategy – An Abusive Tax Shelter

Included among the so-called “financial services”
that Defendant Northern Trust peddled to Menzies and
Ferenc was the “Euram Oak Strategy.” (SAC ¶¶ 16,
25). The strategy was a tax shelter product that
Northern Trust, Christiana Bank & Trust Company
(“Christiana”), Seyfarth Shaw LLP (“Seyfarth”),
Graham Taylor (“Taylor”) and Euram Bank (“Euram”)
(collectively, the “Enterprise”) developed, marketed and
implemented. (SAC ¶¶ 16–17, 20–25)
Neither Menzies nor Ferenc were sophisticated in
tax planning. (SAC ¶ 46). Over the course of the next

7
several months, the Enterprise collectively represented
to Menzies and Ferenc on numerous occasions that the
Euram Oak Strategy was lawful and could be used to
shelter income and thus taxes from a potential sale of
the AUI stock. (SAC ¶¶ 43, 62, 76, 81, 88, 93, 98, 110,
111, 115, 148).
The transaction employed a grantor trust (“GRRT”
or, for Menzies, the “Persephone Trust”), which
provided the grantor with the power to reacquire the
trust corpus by substituting other property of an
equivalent value, by either (a) the grantor contributing
options to the GRRT that were substantially offsetting
over a relevant range of values, or (b) the grantor
substituting appreciated assets for high-basis assets
originally contributed to the GRRT. (SAC ¶ 16). The
purported effect of the substitution was to create a tax
basis in the contributed assets that bore no
relationship to the taxpayer’s economic investment in
the asset, and thus sheltered the taxpayer’s capital
gains from sale reducing tax exposure. (SAC ¶ 16).
As it turns out, the Internal Revenue Service (“IRS”)
later designated the Euram Oak Strategy as a
“transaction of interest” that has a potential for tax
avoidance or evasion. See IRS Notice 2007-73. Contrary
to the representations to Menzies and the other
victims, the Euram Oak Strategy lacked economic
substance, did not have a bona fide estate planning
purpose and would never withstand IRS scrutiny. Id.

8
ii.

Euram Bank Actively Developed,
Marketed and Implemented its
Fraudulent Tax Schemes, Including the
Euram Oak Strategy

Once the Euram Oak Strategy had been created, it
was easily replicated for multiple taxpayers, creating
a clear and present threat of repetition and continued
criminal activity. (SAC ¶¶ 157, 158, 210). Defendants
were not providing individualized tax advice, but
instead were engaged in a scheme to provide “tax
products” aggressively marketed to multiple clients.
(SAC ¶ 15). As evidence of Defendants’ marketing
efforts, Menzies attached a PowerPoint presentation to
his Second Amended Complaint which describes the
Euram Oak Strategy (SAC ¶¶ 21–22), and includes an
eleven page “white paper” laying out the technical
treatment of the strategy (SAC ¶ 41). Each of these
documents includes a standard disclaimer
demonstrating that the documents were intended for
distribution to multiple potential investors.
(SAC ¶¶ 22, 41).
Euram’s activity in promoting tax shelter products
was not limited to the Euram Oak Strategy. During the
same time period, Euram also promoted and sold the
Euram Rowan Strategy, POINT and the Split Option
Trading Strategy. (SAC ¶ 18). Euram was identified as
a regular off-shore participant in illegal tax shelters in
the United States Senate Permanent Subcommittee on
Investigations Report entitled “Tax Haven Abuses: the
Enablers, the Tools and Secrecy”. (SAC ¶ 27). The
structured products group of Euram including
individuals, John Staddon, Rajan Puri, Arfan Shaikh

9
and Tania Salim, were involved in the execution of the
Euram Oak Strategy, the Euram Rowan Strategy and
the Euram products identified in the Senate reports.
(SAC ¶¶ 18, 28).
iii.

The
Enterprise
Had
Already
Implemented the Euram Oak Strategy
and Another Abusive Tax Shelter for
Other Victims at the Time Menzies and
Ferenc Were Approached

It turns out that prior to executing the Euram Oak
Strategy for Menzies and Ferenc, the Enterprise had
been involved in executing the same strategy for an
Arizona investor. In Paragraphs 160–165 of the Second
Amended Complaint, Plaintiff details that, as part of
Defendants’ fraudulent scheme, an Arizona investor
also participated in the Euram Oak Strategy.
Christiana was aware of the scheme because prior to
Menzies and Ferenc, it served as the trustee for an
Arizona investor. (SAC ¶¶ 50, 161). When Euram
provided Christiana with a draft of the GRRT for
Menzies and Ferenc, it advised Christiana that “all
your attorney’s points will be included” because the
trust document was based on a similar trust document
used for the Arizona investor. (SAC ¶ 50). Indeed,
while Christiana was communicating with Euram
regarding the Ferenc and Menzies transactions in
October 2003, they were also discussing “two new
trades involving the Oak structure.” (SAC ¶ 89). In
addition, even before executing the Euram Oak
Strategy for Menzies, Ferenc and the Arizona investor,
Plaintiff describes the details of a separate but related
tax scheme known as the Euram Rowan Strategy that

10
Taylor, Seyfarth, Christiana, Euram and Pali
implemented for a North Carolina investor.
(SAC ¶¶ 166–80). The “Rowan Strategy” was named
such by its promotors and was an entirely different tax
planning strategy, although the IRS also determined it
was abusive. (SAC ¶¶ 166–67).
iv.

The Enterprise’s Scheme to Defraud
Menzies and Ferenc

Based in part on the reputation, integrity, and
expertise of Northern Trust, and the explanation of the
Euram Oak Strategy and its representations that the
tax shelter was lawful and would provide the promised
tax saving benefits, Menzies and Ferenc pursued
further discussions. (SAC ¶ 47). Once Menzies and
Ferenc showed interest in the Euram Oak Strategy, the
Enterprise arranged a series of conference calls without
Menzies or Ferenc, including on July 31, 2003 and
August 7, 2003, to discuss the details on how the
transactions would be structured to fraudulently
attempt to avoid tax liability, including that Northern
Trust was to receive a kickback of Euram’s fee, which
in turn, had been calculated as a percentage of tax
savings. (SAC ¶¶ 48, 52, 56–57). Northern Trust was
provided with details of pre- arranged steps associated
with the strategy, and was requested by Euram to
appoint a point person to coordinate the forty to fifty
documents that were required to be executed as part of
the scheme. (SAC ¶ 55).
Northern Trust played a critical role in
recommending that Menzies and Ferenc use Christiana
as the trustee and Seyfarth and Taylor for legal
services, representing to both Menzies and Ferenc that

11
they were independent professional advisors, when in
reality, they were participants in Defendants’ nefarious
scheme and had been involved in prior executions of
the Euram Oak Strategy. (SAC ¶¶ 51, 58–60).
a. Christiana’s Role as a Purported
Independent Trustee
Euram contacted Christiana to act in the role as
trustee for the proposed transactions for Menzies and
Ferenc. (SAC ¶ 50). Neither Ferenc nor Menzies had
any prior dealings with Christiana, who was located
thousands of miles from their homes and business
interests. (SAC ¶ 45). Indeed, although Menzies and
Ferenc had each engaged Northern Trust as a financial
advisor, Christiana was hand-picked by Euram as the
trustee for the Euram Oak Strategy. (SAC ¶ 50).
Christiana purportedly served as an independent
trustee, but concedes that it “performed professional
services at … Euram’s direction.” (Dkt. 178, p. 3).
Christiana was not acting as Menzies’ fiduciary, or
as an independent trustee, but instead was working at
Euram’s direction to conceal that the Euram Oak
Strategy was no more than an abusive tax shelter
designed to produce fees. Euram provided Christiana
with a specific list of prearranged and fraudulent steps
to be undertaken for Menzies’ transaction. (SAC ¶ 65).
The scheme required that Christiana participate in
numerous steps of the transaction (often executing
documents on both sides of the particular agreement).
(SAC ¶¶ 79, 83, 87).
Menzies later determined that Christiana was
concerned about its own liability for its role in the

12
scheme when on, or about, June 5, 2004, Euram
contacted Christiana regarding the execution of the
Euram Oak Strategy for Menzies and Ferenc regarding
the possibility that the Euram Oak Strategy might be
a reportable transaction to the IRS. (SAC ¶ 94).
Christiana had its outside counsel review whether
Christiana, as a material advisor, had an obligation to
report to the IRS the 2003 Tax Shelter (and the similar
transaction entered into by Ferenc). (SAC ¶ 94).
Christiana, despite its fiduciary duty to Menzies,
failed to advise Menzies that it had sought counsel to
consider whether Menzies had engaged in a reportable
tax shelter transaction, notwithstanding that, Plaintiff
alleges that on information and belief, Christiana
charged the trust for the legal fees involved in pursuing
such advice. (SAC ¶ 94).
b. The Participation of Taylor and
Seyfarth in Drafting Bogus Legal
Opinions Justifying the Transactions
On August 7, 2003, Northern Trust also
recommended that Menzies engage Taylor (and
Seyfarth) “because he was up to speed and would
quickly get the documents ready to sign.” (SAC ¶ 58).
Taylor had been contacted by Euram regarding
Menzies’ and Ferenc’s transactions before he was ever
introduced to them. (SAC ¶ 53). This is not surprising
because, based on his own testimony from a federal
criminal trial, Taylor drafted hundreds of fraudulent
opinion letters, over a span of more than ten years, and
involving no less than eight different tax shelters:
“Taylor knew what he was doing was wrong, but
continued in his course of conduct because it was

13
profitable, it was intellectually stimulating and
challenging; and because he was caught up in the
fervor of the tax shelter world.” (SAC ¶ 104).
In May 2003 Taylor had received a white paper
related to the Euram Oak Strategy and prepared a
summary of the steps necessary to obtain the required
tax benefit. (SAC ¶ 104). Taylor was also provided with
a draft legal opinion drafted by Proskauer Rose for the
Euram Oak Strategy for his use in connection with the
Menzies and Ferenc transaction. (SAC ¶ 39). Taylor’s
practice was to reuse the same form opinion letters,
with any changes consisting of the personal details
filled in for each specific client. (SAC ¶¶ 102, 109).
For Menzies and Ferenc, Taylor actually drafted the
letter for Ferenc, only later copying it with the personal
information changed for Menzies. (SAC ¶¶ 109, 110,
111, 115, 117, 123). In July 2004, even though Taylor
was purportedly issuing an independent legal opinion,
he sent a draft of the opinion letter to representatives
of Pali and Euram, promotors of the tax shelter, for
comments. (SAC ¶¶ 112–14). Taylor incorporated the
Euram/Pali’s comments into his purported independent
opinion letter. (SAC ¶ 114).
By November 2005, Taylor had been indicted for tax
fraud. (SAC ¶ 105). Seyfarth advised other clients of
the criminal charges, but did not do so for Menzies.
(SAC ¶ 106). In July 2006, before Menzies filed his tax
returns reflecting the sale of AUI stock, he sought
advice from Taylor regarding the Euram Oak Strategy.
(SAC ¶ 134). Taylor did not advise Menzies that he had
been indicted for tax fraud, but instead provided
Menzies further false assurances that the structure

14
was lawful and that Menzies would receive the tax
benefit as promised. (SAC ¶ 134). By the time that the
IRS completed its audit of Mr. Menzies’ taxes in 2012,
Taylor had pled guilty to felony tax fraud, a fact the
IRS found material in determining that it would assess
penalties against Menzies. (SAC ¶ 142).
v.

Menzies’ Obligation to Pay Capital Gains
Tax, Penalties and Interest After the IRS
Audit Determines Euram Oak Strategy is
Abusive

In early 2006, AUI agreed to sell its shares to
Berkshire Hathaway Inc. (“BHI”). (SAC ¶ 130). BHI
purchased the AUI stock from Menzies’ Persephone
Trust in May 2006. (SAC ¶ 131). Menzies filed his 2006
income tax in 2007, and as a result of, and relying on
the advice he received from the Enterprise, he did not
declare the AUI sale to BHI as a taxable event.
(SAC ¶ 135). Christiana filed the tax return on behalf
of Menzies’ trust in 2007, and also failed to report the
sale of the AUI stock. (SAC ¶ 136). However, in October
2009, the IRS notified Menzies of its intent to audit
Menzies’ 2006 tax returns. Menzies reasonably relied
upon Defendants’ representations, including the
Seyfarth opinion letters, in explaining to the IRS why
he did not report the sale of AUI stock. (SAC ¶ 138).
Not surprisingly the IRS was not persuaded by
Defendants’ scheme, and instead found that the
purpose of the transaction was to inappropriately
inflate Menzies’ tax basis in his AUI stock.
(SAC ¶ 144). The IRS did not believe that Taylor’s
opinion letter provided any form of defense, and
threatened Menzies with large fines, severe penalties,

15
civil actions, and even potential criminal liability. (SAC
¶ 144). As a result, Menzies was forced to settle with
the IRS, making a payment of $10,427,201.98 in capital
gains tax, penalties and interest. (SAC ¶ 144). This
action ensued shortly thereafter.
B. Procedural Background
i.

District Court Proceedings

Menzies filed the action on April 17, 2015. (Dkt. 1).
On June 10, 2015, Defendants Northern Trust,
Christiana, Seyfarth and Taylor each moved to dismiss
pursuant to Fed. R. Civ. P. 12(b)(6). (Dkt. 29, 31, 35).
On July 15, 2016, the district court entered a
memorandum opinion and order granting in part and
denying in part the motions to dismiss the RICO and
RICO conspiracy causes of action. (Menzies v. Seyfarth
Shaw LLP, 197 F. Supp. 3d 1076, 1118–19 (N.D. Ill.
2016)). The district court granted Menzies leave to file
an amended complaint to address the alleged pleading
deficiencies and lifted the stay of discovery to permit
Menzies to conduct discovery. (Id. at 1119).
On December 23, 2016, Menzies filed an amended
complaint. (Dkt. 101). On February 2, 2017,
Defendants each moved to dismiss the amended
complaint. (Dkt. 105, 108, 114). On May 16, 2017, the
parties argued the motions before the court, and the
court took Defendants’ motions to dismiss under
advisement. (Dkt. 136). On August 8, 2017, the court
granted Menzies leave to file a second amended
complaint, and denied each of the pending motions to
dismiss without prejudice. (Dkt. 163). On August 8,
2017, Menzies filed his SAC. (Dkt. 165).

16
On September 5, 2017, Defendants each moved to
dismiss the SAC. (Dkt. 169, 172, 175). On September
21, 2018, the court granted Defendants’ motions to
dismiss, and entered a final judgment in their favor.
(App 82a). Plaintiff timely filed a notice of appeal on
October 15, 2018. (Dkt. 233)
ii.

The Seventh Circuit Panel Decision
a. Majority

In a 2-1 decision, the United States Court of
Appeals for the Seventh Circuit Majority determined
that Menzies did not adequately plead either open- or
closed-ended continuity as required by RICO. The
Majority and the Dissent agreed that Menzies pleaded
the underlying tax shelter in sufficient detail to state
a claim for RICO. (App. 25a, 45a). Likewise, the Panel
was unanimous in finding that the allegations were
sufficient with respect to Sidney Ferenc. (App. 25a,
45a). In evaluating whether there was a pattern of
racketeering activity, the Majority and Dissent only
reached different conclusions as to whether Menzies
could establish closed- or open-ended continuity.
Although the factual allegations were sufficient to
establish predicate acts of mail and wire fraud with
respect to Menzies and Ferenc, the Majority improperly
concluded that the allegations fell short with respect to
the North Carolina and Arizona investors. (App. 23a).
This conclusion was based only on the Majority’s
determination that “[w]hat Menzies needed to do …
was allege at least some particulars about the precise
communications with each investor.” (App. 23a).
Because Menzies did not allege the specific contents of

17
Defendants’ communications with the North Carolina
and Arizona investors, the Majority found that even
though Menzies had alleged two victims with the
particularity required by Rule 9(b), Menzies still did
not establish closed-ended continuity. (App. 24a). After
purporting to consider “the number and variety of
predicate acts, the length of time over which they were
committed, the number of victims, the presence of
separate schemes, and the occurrence of distinct
injuries,” the Majority focused only on the fact that
Menzies had not provided detailed factual allegations
of the specific contents of opinion letters (which had
been withheld on the basis of privilege), failed to
provide Menzies with the benefit of reasonable
inferences from the other allegations and improperly
concluded that “his pleading was deficient [as to closedended continuity].” (App. 25a).
With respect to open-ended continuity, the Majority
found that the scheme was reaching its “natural ending
point” because of the following intervening events:
Euram Bank divested from its subsidiary, Pali Capital;
Taylor was indicted for tax fraud; one of Taylor’s
colleagues was forced to resign from Seyfarth; and
Christiana and Euram Bank were conducting internal
investigations regarding the possibility that the Euram
Oak Strategy might be a reportable transaction.
(App. 26a–27a) (emphasis added). The Majority then
concluded (albeit incorrectly) that there were no factual
allegations to support the conclusion that “following
Taylor’s arrest and indictment, there existed a threat
of the defendants fraudulently marketing the tax
shelter into the indefinite future.” (App. 28a).

18
b. Dissent
Judge Hamilton, in dissent, found that Menzies
“easily satisf[ied] [the] pleading requirements for a civil
RICO claim, including the required ‘pattern of
racketeering activity.’” (App. 41a). In concluding that
Menzies’ allegations established closed- and openended continuity, Judge Hamilton explained that the
Majority erred in several critical ways; specifically, the
Majority “use[d] [ ] the distorting lens of hindsight,”
“demand[ed] far too much from a complaint that is
already quite detailed, and [ ] fail[ed] to give plaintiff
the benefit of plausible inferences from his complaint.”
(App. 35a). The Majority’s restrictive approach to
RICO’s pattern element contradicts this Court’s and
the Seventh Circuit’s emphasis on the need to apply a
flexible approach in evaluating the pattern
requirement. (App. 41a–45a).
With respect to open-ended continuity, Judge
Hamilton took issue with the Majority “mak[ing] the
basic error of giving the defendants the benefit of
hindsight rather than considering the threat of
continued fraud as it was happening.” (App. 48a).
Further, “[a]gainst [ ] substantial case law showing
that courts do not rely on hindsight … to avoid
recognizing a continued threat of crimes in … RICO
cases, the majority offer[ed] no support for its reliance
on hindsight.” (App. 54a).
Judge Hamilton explained that employing hindsight
improperly allows a threat-of-continuity determination
to be grounded on intervening events (e.g., Taylor’s
conviction). (App. 48a–49a). “Extensive RICO case law
shows that … intervening event[s] [are] not relevant to

19
the threat of repetition.” (App. 49a). In fact, Judge
Blakey, the district judge who dismissed this case,
instructed in another recent RICO case (Inteliquent,
Inc. v. Free Conferencing Corp., 2017 WL 1196957, at
*10 (N.D. Ill. 2017)) that “a lack of a threat of
continuity ‘cannot be asserted merely by showing a
fortuitous interruption of that activity such as by an
arrest, indictment or guilty verdict.’” (App. 51a).
Perhaps most critically, Judge Hamilton warned
that the Majority’s error will unduly narrow RICO’s
application where “ongoing schemes are interrupted by
arrests, indictments, convictions, or other events.”
(App. 49a). In particular, applying hindsight to analyze
the threat of continuity “weakens criminal application
of RICO where intervening events interrupt ongoing
criminal schemes.” (App. 51a).
Turning to Menzies’ detailed allegations, Judge
Hamilton found the Majority erred by not engaging
with the “extensive factual details alleged in the
complaint that indicate a threat of repetition and
support open-ended continuity”, and by “fail[ing] to
apply the proper standard of review, which gives the
plaintiff the benefit of reasonable inferences from the
allegations.” (App. 54a–55a, 56a). Based on the
“extensive details about how defendants carried out the
fraud with Menzies and Ferenc”, Judge Hamilton
determined it was plausible that Defendants’ schemes
presented a threat of continuing activity.
(App. 55a–56a).
The Majority failed to acknowledge the detailed
allegations that “defendants themselves described [the]
schemes as ‘very similar’ to and ‘in essence identical’ to

20
transactions with the Arizona investor.”
(App. 55a–56a). “The complaint also describes the
similar ‘Euram Rowan Strategy’ with the North
Carolina investor[ ] ….” (App. 55a–56a). Further,
Defendants used “fancy marketing materials” with
disclaimers addressed to “investors” generally and
required prospective clients to sign confidentiality
agreements before explaining the tax shelter products.
(App. 56a). On these facts, Judge Hamilton concluded
that there was “ample support” for a threat of
continuity, exclaiming, “[o]f course there was a threat
of continued fraudulent episodes! As long as the
defendants were getting away with the scam, why
should they have stopped …?” (App. 56a). Defendants
“had developed a profitable product … [that] assured
defendants hundreds of thousands of dollars in fees
every time it was used.” (App. 56a). As Judge Hamilton
explained, in the law “we ordinarily assume people are
rational actors”, meaning “we would expect defendants
to continue with their profitable venture.” (App. 56a).
Judge Hamilton also concluded that even with
limitations place on Menzies’ ability to conduct
discovery, Menzies satisfied Rule 9(b)’s pleading
standard and demonstrated closed-ended continuity.
(App. 57a–60a). Judge Hamilton found that: (1) the
Majority disregarded that in discovery Defendants
evaded production of their fraudulent communications
with the other investors by asserting attorney-client
privilege,1 and (2) “impose[d] an unfair and excessive
1

Judge Hamilton noted that “[g]iven the IRS’s rejection of these
abusive tax shelters, there are ample reasons to think that the
crime-fraud exception would apply to pierce the privilege ….”
(App. 57a).

21
pleading requirement [on Plaintiff] that goes beyond
Rule 9(b) and any need for fair notice to defendants.”
(App. 57a). Thus, among other things, the Majority
“unfairly reward[ed] defendants for their efforts to
cover up their attempts to defraud other investors.”
(App. 60a).
Elaborating on the Majority’s “unfair and excessive
pleading requirement,” Judge Hamilton stated that the
Majority “discount[ed] the complaint’s plausible
allegations about the fraud aimed at the North
Carolina and Arizona investors.” (App. 57a). Indeed,
contrary to the Majority’s finding, Judge Hamilton
concluded that Plaintiff’s allegations satisfied Rule
9(b)’s heightened pleading standard by establishing the
who, what when, where, and how of Defendants’ fraud
with the North Carolina and Arizona investors.
(App. 59a). Moreover, Judge Hamilton explained that
closed-ended continuity “should not fail simply because
plaintiff has not yet seen [Defendants’] fraudulent
opinion letters. … It’s not difficult to infer what they
said. If the letters had not asserted the fraudulent
shelters were legal, there of course would have been no
point in the transactions.” (App. 59a). In fact, Judge
Hamilton found “[t]he inference that the defendants’
opinion letters say fraudulently that the tax shelters
would be legal is not merely plausible but compelling.”
(App. 59a (emphasis added)).
On November 26, 2019, Menzies filed a petition for
rehearing en banc. (App. 167a). The Seventh Circuit
denied Menzies’ petition for rehearing en banc on
December 12, 2019. (App. 166a–67a).

22
REASONS FOR GRANTING THE WRIT
RICO imposes liability upon those who engage, or
conspire to engage, in a pattern of racketeering activity
through designated prohibited activities (referred to as
predicate acts), including mail and wire fraud. 18
U.S.C. § 1961, et seq. Despite requiring a “pattern” of
racketeering activity, RICO offers little guidance on
what constitutes a pattern. See 18 U.S.C. § 1961(5) (a
pattern “requires a least two acts of racketeering
activity within a ten-year period”). This Court last
addressed RICO’s pattern element over three decades
ago in H.J. Inc. v. Northwestern Bell Telephone Co., 492
U.S. 229 (1989), and it is thus time to update the
pattern element. In H.J., this Court mandated a
flexible approach to applying RICO’s pattern
requirement and emphasized that a pattern requires
“continuity plus relationship”. Id. at 238, 239.
Continuity is “both a closed- and open-ended concept,
referring either to a closed period of repeated conduct,
or to past conduct that by its nature projects into the
future with a threat of repetition.” Id. at 241.
Despite the guidance provided in H.J., uncertainty
in applying the continuity prong has persisted,
deepening circuit splits and undermining RICO’s
integrity. This ongoing uncertainty and expanding
disagreement over the proper application of the
continuity prong is reflected in the Seventh Circuit
Panel’s 2-1 decision in this case, which turned on the
presence of continuity. While the dissent concluded
that Plaintiff “easily satisfie[d] the ‘pattern’
requirement” by pleading a “strong case of open-ended
continuity” and providing sufficient information,

23
despite discovery limitations, to establish closed-ended
continuity (App. 47a, 57a–60a), the Majority disagreed.
Disagreement over the continuity prong is not limited
to this case, but is rampant and has created
inconsistencies across the circuits. These
inconsistencies are not trivial – they undermine the
integrity of RICO. This Court’s guidance is needed to
prevent further erosion of RICO’s effectiveness.
Moreover, clarification by this Court will serve to
advance the development of RICO.
I. This Court’s Guidance is Needed to Clarify the
Flexible Approach to the Continuity Analysis
A. The Flexible Approach to Determine
Continuity Requires Consideration of More
Than One Factor
This Court has stressed that a flexible approach
should be used to determine the existence of a pattern,
and consequently, continuity. H.J., 492 U.S. at 239.
“Congress intended to take a flexible approach, and
envisaged that a pattern might be demonstrated by
reference to a range of different ordering principles or
relationships between predicates, within the expansive
bounds set.” Id. at 238–39. In this case, however, the
Majority failed to follow this Court’s mandate, and
instead applied a restrictive approach to determine
continuity.
While claiming to apply the approach laid out in
H.J. to its continuity analysis, the Majority in fact
applied a restrictive approach by focusing solely on one
factor (the number of victims), rigidly applying
purported pleading requirements, and ignoring the

24
facts and circumstances of this case. Given the
complexity of the fraudulent scheme in this case, the
duration of the execution, the nature and extent of the
predicate acts alleged in the SAC, Menzies’ allegations
should have been sufficient under the guidance of H.J.
and would have been found to state a claim under
authority from the Sixth, Ninth and Eleventh Circuits.
Ouwinga v. Benistar 419 Plan Servs., Inc., 694 F.3d
783, 795–96 (6th Cir. 2012) (shelter marketed over
period of five years); Newmyer v. Philatelic Leasing,
Ltd., 888 F.2d 385, 396–97 (6th Cir. 1989) (marketing
of fraudulent tax shelter); Durham v. Bus. Mgmt.
Assocs., 847 F.2d 1505, 1512 (11th Cir. 1988) (pattern
with two related schemes to market fraudulent tax
shelters); United Energy Owners Comm., Inc. v. U.S.
Energy Mgmt. Sys., Inc., 837 F.2d 356, 360–61 (9th Cir.
1988) (reversing dismissal of RICO claim based on
marketing of fraudulent tax shelter).
The Majority’s closed-ended continuity analysis
centered on one factor: the number of victims. On this
finding alone, the Majority determined that Menzies
did not establish closed-ended continuity.
(App. 24a–25a). Under the flexible approach espoused
by H.J., however, it is improper to find a lack of
continuity based only on one factor. Indeed, courts,
including the Seventh Circuit have even found
continuity where only one victim was alleged,
demonstrating that a flexible approach to the
continuity analysis requires consideration of more than
one factor. See, e.g., Gagan v. Am. Cablevision, Inc., 77
F.3d 951, 963 (7th Cir. 1996) (plaintiff established a
pattern, even though claim was based on a single
victim and a single scheme); Liquid Air Corp. v. Rogers,

25
834 F.2d 1297, 1304 (7th Cir. 1987) (“mere fact that the
predicate acts relate to the same overall scheme or
involve the same victim does not mean that the acts
automatically fail to satisfy the pattern requirement”
(citation and internal quotation marks omitted)); Dana
Corp. v. Blue Cross & Blue Shield Mut. of N. Ohio, 900
F.2d 882, 886–87 (6th Cir. 1990) (noting it did not
believe Congress intended to allow evasion of RICO
simply because predicate acts were limited to one
victim).
The Majority’s rigid approach precludes from
RICO’s scope cases that successfully establish
continuity under H.J. Further, the Majority’s failure to
use a flexible approach when evaluating whether the
factual allegations establish continuity, creates intracircuit and inter-circuit conflicts and, thus, shows that
this Court’s clarification on the continuity analysis is
essential to protect RICO’s integrity and advance the
development of RICO.
B. The Elements of Common Law Fraud
Cannot Be Conflated with Mail and Wire
Fraud to Prevent Application of RICO
The Majority’s determination that Menzies only
pled two victims with particularity was based on
flawed reasoning and further reflects the improper
rigid approach applied in this case. The only thing the
Majority found missing from Menzies’ SAC was a
description of the contents of the opinion letters.2
2

Plaintiff received Seyfarth’s legal opinions relating to the Euram
Oak Strategy which Taylor had issued to each of Menzies and
Ferenc. (SAC ¶¶ 1, 110, 111, 115, 118). These opinions are

26
(App. 22a–23a). Because Defendants withheld the
documents on the basis of attorney/client privilege,
Menzies was only able to make allegations on
information and belief as to the contents of the letters.
The Majority should have found these allegations
sufficient.
The Majority concluded that Menzies’ allegations
were insufficient with regard to the North Carolina and
Arizona investors, because, as the Majority ruled, the
“combined demands of RICO’s pattern element and
Rule 9(b)’s particularity mandate” required that
Menzies “spell out the specifics of any defendant’s
communication with [each] investor.” (App. 21a, 22a).
The Majority reasoned that without specific allegations
of what each defendant “represented, misrepresented,
or omitted” there was “no way to determine whether
multiple predicate acts of mail or wire fraud occurred
in a manner that satisfies RICO’s pattern
requirement.” (App. 23a). Yet, under this Court’s, the
Seventh Circuit’s and Eighth Circuit’s precedents, mail
and wire fraud do not require that there be any
misrepresentation contained in any communication
between defendants and the other victims. Schmuck v.
United States, 489 U.S. 705, 714–15 (1989); United
States v. Sheneman, 682 F.3d 623, 629–30 (7th Cir.
virtually identical in language, save the differences in the names
of the specific trust entities and the dollar amounts of the
transactions. (SAC ¶ 123). Menzies identified numerous specific
false statements contained in the Seyfarth opinion that he
received. (SAC ¶ 124). Menzies has specifically alleged that
Taylor’s practice was to reuse the same form opinion letters, with
any changes consisting of the personal details filled in for each
specific client. (SAC ¶¶ 102, 109).

27
2012); see also Atlas Pile Driving Co. v. DiCon Fin. Co.,
886 F.2d 986, 992 (8th Cir. 1989). Instead, an act of
mail fraud actually occurs when a person, “having
devised or intending to devise any scheme or artifice to
defraud,” uses the mail “for the purpose of executing
such scheme or artifice or attempting so to do....”
18 U.S.C. § 1341; United States v. Briscoe, 65 F.3d 576,
583 (7th Cir. 1995) (wire fraud).
While the scheme to defraud must be pleaded with
particularity (which the Majority concedes Menzies
accomplished (App. 21a–22a)), nothing in Rule 9(b)
requires Menzies to specifically allege the contents of
the opinion letters that purported to support
transactions involving other victims. The issuance of
the opinion letters is part of the scheme, but Menzies
is not required to plead the particular contents of the
opinion letters, as unlike a common law fraud, mail
and wire fraud do not require specific fraudulent
statements or omissions (or reliance). See 18 U.S.C.
§§ 1341, 1343. This is particularly true when
Defendants claimed privilege for the very opinion
letters that the Majority decided were needed for
Menzies to demonstrate continuity.
Despite Defendants evading production of the
opinion letters used for the other investors, Menzies
still alleged the “who, what, when, where, and how”
with respect to these letters. Menzies alleged that in
late 2002, Euram suggested that the North Carolina
investor engage Taylor to provide a purported legal
opinion in connection with the tax benefits promised
from the Euram Rowan Strategy. (SAC ¶ 176). To that
end, in or about October 2003, through the use of the

28
mails or via e-mail transmission, Taylor and Seyfarth
provided the North Carolina investor with a legal
opinion letter. (SAC ¶ 177). With respect to the Arizona
investor, Menzies alleged that in or about March 2003,
representatives of Euram and/or Pali, including Arfan
Shaikh and Tania Sali, communicated with the Arizona
investor regarding the Euram Oak Strategy.
(SAC ¶ 160). Menzies alleged that in or about February
2004, through the use of the mails or e-mail
transmission, Taylor and Seyfarth provided the
Arizona investor with a legal opinion letter.
(SAC ¶ 162). Later, on or about February 26, 2004,
Seyfarth and Taylor sent via United States Mail or
Federal Express an invoice for the tax advice related to
the Arizona investor’s execution of the Euram Oak
Strategy (i.e., the opinion letter). (SAC ¶ 164). These
detailed allegations fully satisfy Rule 9(b)’s pleading
requirement with respect to the opinion letters issued
to the Arizona and North Carolina investors.
Even assuming arguendo that mail and wire fraud
required pleading the contents of the mailing and/or
wire communication, Menzies’ allegations satisfy this
requirement. Importantly, on a Rule 12(b)(6) motion to
dismiss, the allegations in Menzies’ SAC must be
accepted as true and Menzies must be given the benefit
of favorable, reasonable inferences. Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (internal quotation marks and
citation omitted). The Majority, however, failed to
apply this standard in improperly requiring that
Menzies “spell out the specifics” of the opinion letters.
(App. 22a–23a).

29
From the allegations it can be reasonably inferred
that the opinion letters sent to the other investors were
substantially similar, if not identical, to the opinion
letters issued to Menzies and Ferenc, which contained
assertions as to the legality of the respective tax shelter
products. (SAC ¶¶ 102, 109, 110, 123). Indeed, it would
be unreasonable to infer otherwise. And, the Majority
concluded that the allegations were sufficient with
respect to the opinion letters issued to Ferenc and
Menzies. (App. 21a–22a). Taylor reused the same basic
opinion letter for each client investing in Defendants’
tax shelter products. (SAC ¶¶ 102, 109). Taylor’s
practice of recycling opinion letters is reflected in his
communication to another Seyfarth attorney, stating,
“the Ferenc letter has just be[en] finished by Eda, clone
for Menzies.” (SAC ¶ 117 (emphasis added)). In
addition, Defendants’ recycling of other documentation
used to execute their schemes is revealed in
Defendants’ communication describing documents used
with Menzies and Ferenc as “very similar” and in
“essence identical” to the documents used with the
other investors. (SAC ¶¶ 50, 69, 78). On these factual
allegations, it is more than reasonable to infer that the
opinion letters issued to the North Carolina and
Arizona investors were substantially similar, if not
identical, to the opinion letters issued to Menzies and
Ferenc which confirmed the legality of the tax shelters.
The Majority’s overly restrictive application of Rule
9(b)’s heightened pleading standard required Menzies
to plead details beyond the statutory requirements for
the underlying offenses. This Court should grant
Menzies’ Writ to correct the imposition of common law
fraud elements into claims of mail and wire fraud and

30
to prevent an overly restrictive application of Rule
9(b)’s heightened pleading standard.
II. Hindsight Cannot be Used to Determine
Whether There is a Continuing Threat of
Racketeering Activity
The Majority’s use of hindsight in determining
whether Defendants’ scheme had a natural ending
point or threat of continuing directly conflicts with the
law in the Second, Fifth, Sixth, Seventh and D.C.
Circuits, adding another layer of uncertainty to the
continuity analysis. Further, the Majority’s use of
hindsight has significant implications on RICO’s scope
because it obstructs a victim’s ability to successfully
plead a violation of RICO when ongoing racketeering
activity is interrupted by fortuitous events, such as
arrests or convictions. To temper growing uncertainty
and prevent an unwarranted contraction to RICO’s
scope, this Court’s guidance is needed on the propriety
of employing hindsight to assess the existence of a
threat of continuing racketeering activity.
A. Use of Hindsight Further Fractures the
Continuity Analysis
In this case, the Majority failed to assess whether
Defendants’ scheme had a threat of continuing at the
time of the racketeering activity and, instead, made its
determination based on hindsight. The Majority’s
improper use of hindsight allows racketeering activity
to escape prosecution for RICO violations when ongoing
predicate acts are interrupted by intervening events.
Menzies provided detailed factual allegations that
established Defendants’ scheme threatened to continue

31
and had no natural ending point. Defendants’ abusive
tax shelter products were not custom-designed for
Menzies, but rather, were generic products with
templates that could be (and were) quickly and easily
replicated to defraud similarly situated taxpayers.
(SAC ¶¶ 15, 20). Indeed, Defendants were incentivized
to repeat the scheme indefinitely because each time it
was repeated, Defendants reaped hundreds of
thousands of dollars in professional fees. (SAC ¶ 20).
Defendants themselves described the transactions
for their abusive tax shelter products carried out for
different taxpayers as “very similar” or “in essence
identical”. (SAC ¶¶ 50, 82). When Arfan Shaikh of
Euram Bank sent documents that were used to carry
out the transactions for Defendants’ abusive tax
shelters, Mr. Shaikh advised Defendants that they
“should be familiar” with the documents from other
transactions. (SAC ¶¶ 69, 78). Further, the replicable
nature of Defendants’ tax shelter products is evidenced
by Defendants’ marketing materials, which contained
a standard disclaimer addressed generally to
“investors”, thus showing that the tax shelters were not
marketed to a specific individual, but instead were
peddled to a broad group of “investors”. (SAC ¶¶ 22,
41). Moreover, before providing details on their tax
shelter products, Defendants required taxpayers to
execute a confidentiality agreement. Defendants’ use of
confidentiality agreements demonstrates that
Defendants wanted to prevent disclosure of details
concerning their products so that they could continue
to replicate the products with new taxpayers, and
consequently, increase their profits. (App 39a–40a)

32
Defendants repeated their scheme with at least four
taxpayers and had designed the scheme to be repeated
indefinitely. Nevertheless, applying hindsight, the
Majority found the scheme posed no threat of
continuing because members of the enterprise were
conducting investigations or arrested for their
involvement in the scheme. (App. 26a–27a). The
Majority reasoned that these fortuitous events
indicated that the scheme was “running its
course—reaching its ‘natural ending point’….”
(App. 27a).
The Majority’s use of hindsight creates both intracircuit and inter-circuit conflicts and, as a result,
affects the consistent application of RICO in openended continuity cases. See, e.g., United States v.
O’Connor, 910 F.2d 1466, 1468 (7th Cir. 1990); United
States v. Aulicino, 44 F.3d 1102, 1113–14 (2d Cir.
1995); Abraham v. Singh, 480 F.3d 351, 356 (5th Cir.
2007); Heinrich v. Waiting Angels Adoption Servs., Inc.,
668 F.3d 393, 410 (6th Cir. 2012); United States v.
Busacca, 936 F.2d 232, 238 (6th Cir. 1991);United
States v. Richardson, 167 F.3d 621, 626 (D.C. Cir.
1999).
For example, Busacca rejected the defendant’s
argument that the threat of continuity was defeated
because the scheme could not continue following the
defendant’s conviction. 936 F.2d at 238. The Sixth
Circuit stated that the “threat of continuity cannot be
made solely from hindsight,” and therefore, a “lack of
a threat of continuity of racketeering activity cannot be
asserted merely by showing a fortuitous interruption of
that activity such as by an arrest, indictment or guilty

33
verdict.” Id.; see also Heinrich, 668 F.3d at 410
(Fraudulent adoption scheme’s threat of continuing
was not defeated by the shutdown of defendants’
business because at the time of the racketeering
activity, and before the shutdown, there was no limit to
the number of couples seeking to adopt, or the number
of children that defendants could hold out as available
(internal citation and quotation marks omitted)); Blue
Cross & Blue Shield of Michigan v. Kamin, 876 F.2d
543, 545 (6th Cir. 1989) (open-ended continuity alleged
because if defendant had not been caught, he would
still be submitting fraudulent insurance claims).
Similarly, the Second Circuit in Aulicino found a
threat of continuity existed despite the racketeering
activity (a series of kidnappings to extract ransoms)
ending after a leader of the enterprise was murdered
and several other leaders were arrested. 44 F.3d at
1112–14. The enterprise’s abandonment of its activities
did not eliminate the threat of continuity because at the
time of the racketeering activity, “there was no reason
the ring could not attempt to kidnap additional
individuals any time the ring members wanted more
money.” Id. at 1113–14. The Fifth Circuit, D.C. Circuit
and Seventh Circuit have similarly found that it is
improper to use hindsight to determine that fortuitous
events defeat the threat of continuity. See Richardson,
167 F.3d at 626 (“The fortuitous interruption of
racketeering activity such as by an arrest does not
grant defendants a free pass to evade RICO charges.”
(internal alterations, citation and quotation marks
omitted)); Abraham, 480 F.3d at 356 (no reason to
believe defendants’ scheme “would not have continued
indefinitely had the Plaintiffs not filed this lawsuit”);

34
O’Connor, 910 F.2d at 1468 (even though racketeering
activity ended with defendant’s arrest, evidence was
sufficient to establish a pattern because defendant had
committed himself to an “enduring series” of
racketeering activity).
Incorporated into the “threat of continuity” analysis,
is the assessment of whether a scheme had a natural
ending point. Here too, the Majority disregarded
precedent and used hindsight to conclude that several
intervening events (e.g., Taylor’s arrest and conviction)
indicated the scheme had a “natural” ending point.
(App. 26a–27a). Even if true, these facts do not
establish that this tax shelter scheme had a natural
ending point. Even after Taylor’s arrest and conviction
the scheme could have continued unabated with
attorneys from Seyfarth, or otherwise.
Contrary to the Majority’s conclusion, the Seventh
Circuit has instructed that a scheme has a natural
ending point when it is created to achieve a “clear and
terminable goal.” See Roger Whitmore’s Auto. Servs.,
Inc. v. Lake Cty., Illinois, 424 F.3d 659, 674 (7th Cir.
2005) (“schemes with a clear and terminable goal have
a natural ending point” (citation and internal quotation
marks omitted)); see also Vicom, Inc. v. Harbridge
Merch. Servs., Inc., 20 F.3d 771, 782 (7th Cir. 1994)
(same). For example, Empress Casino Joliet Corp. v.
Balmoral Racing Club, Inc., involved a planned bribery
where racetrack owners agreed to contribute to thenGovernor Blagojevich’s campaign in exchange for
signing a bill imposing a tax on casinos to the benefit of
the racetrack owners. 831 F.3d 815, 820–21 (7th Cir.
2016). The Seventh Circuit held that the bribe had a

35
natural ending point because “[o]nce the bill was
signed, the scheme was at its natural end point.” Id. at
830.
Likewise, in Roger Whitmore’s Automotive Services,
the Seventh Circuit concluded that a scheme to raise
funds for an undersheriff’s campaign had a natural end
point: the election date. 424 F.3d at 674; see also
Vicom, 20 F.3d at 783 (“natural ending point” with
company’s sale); Uni*Quality, Inc. v. Infotronx, Inc.,
974 F.2d 918, 919–20 (7th Cir. 1992) (“natural end
point: the completion of the [project]”).
Further, in O’Connor, the defendant, a police officer,
took bribes in exchange for providing information and
protection for undercover federal agents posing as
dealers of stolen auto parts. 910 F.2d at 1468. The
Seventh Circuit found that although the scheme ended
after the defendant was arrested, the facts could
support finding continuity because the scheme was
designed to continue indefinitely. Id. In other words,
continuity could be established because the scheme did
not have a clear and terminable goal, it was intended
to continue in perpetuity.
The Majority’s application of the “natural end point”
analysis to the facts here is not only inconsistent with
the law of other circuits, but ignores this Court’s
emphasis that courts should take a “natural and
commonsense approach to RICO’s pattern element ….”
H.J., 492 U.S. at 237. The Majority, ignoring specific
factual allegations that showed the scheme was easily
replicable and designed to continue indefinitely,
concluded that Defendants’ scheme posed no threat of
continuing and had a natural ending point because a

36
member of the enterprise was eventually arrested
years later (and continued to practice law until he pled
guilty). Commonsense and precedent do not support
the Majority’s conclusion. An arrest and investigation
are not natural, built-in end points, these events are
interruptions, similar to the arrest in O’Connor where
the Seventh Circuit determined the allegations
supported a finding of open-ended continuity.
The Majority’s failure to comply with its own
circuit’s precedent and the precedents of the Second,
Fifth, Sixth and D.C. Circuits, cannot stand, nor can its
disregard of this Court’s emphasis on a natural and
commonsense approach to RICO’s pattern element. The
Majority’s contravention of binding precedent and the
intra- and inter-circuit conflicts it creates by applying
hindsight to its open-ended continuity analysis adds
another layer of uncertainty to the continuity analysis,
thus affecting the integrity of RICO and requiring this
Court’s intervention.
B. The Use of Hindsight Limits RICO’s Scope
by Preventing RICO Claims Where a
Racketeering Enterprise Is Caught
Committing Criminal Activities
As Judge Hamilton discusses in dissent, (App. 49a),
using hindsight, as the Majority does, to analyze the
threat of continuity unduly limits the application of
RICO where the scheme is interrupted by intervening
events, such as arrest. See Richardson, 167 F.3d at 626;
Busacca, 936 F.2d at 238. Such a precedent would
allow an enterprise to avoid RICO claims simply
because the enterprise or one of its members was
caught committing criminal activities. The law should

37
not put victims at a disadvantage by requiring the
threat be successful, see United States v. Koen, 982
F.2d 1101, 1106 (7th Cir. 1992); United States v. Bucey,
876 F.2d 1297, 1311 (7th Cir. 1989), nor should it allow
defendants to benefit from being arrested, indicted or
convicted for conducting racketeering activity or other
criminal conduct. The Majority’s analysis of the threat
of continuity has a substantial effect on RICO’s
application, and thus, is a question of exceptional
importance warranting this Court’s review.
CONCLUSION
For the foregoing reasons, the Petition should be
granted.
Respectfully Submitted,
ROBERT J. HARRIS
Counsel of Record
HARRIS WINICK HARRIS LLP
333 West Wacker Drive
Chicago, IL 60606
(312) 416-4600
rharris@hwhlegal.com
Counsel for Petitioner
Date: March 10, 2020

